HHS/OIG, Audit -"Review of Medicare Disproportionate Share Hospital Payments Claimed By Saint Mary's Regional Medical
Center For Fiscal Year Ending December 31, 2002"(A-01-04-00506)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Disproportionate Share Hospital Payments Claimed By Saint Mary's Regional Medical Center for Fiscal
Year Ending December 31, 2002," (A-01-04-00506)
May 21, 2004
Complete
Text of Report is available in PDF format (220 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Contrary to the Social Security Act, St. Mary’s Regional Medical Center included 1,341 Medicare Part
A paid days in the Medicaid fraction of its disproportionate share hospital (DSH) calculation.  As a result, we determined
that its DSH reimbursement amount was overstated by $433,502.  Section 1886(d)(5)(F)(vi)(II) of the Social Security
Act defines the Medicaid fraction of the DSH calculation as the fraction, the numerator of which is the number of patient
days for which the patient was eligible for Medicaid but not entitled to benefits under Medicare Part A, and the
denominator as the total number of patient days for the same period.  We recommend that St. Mary’s Regional Medical
Center resubmit its FY 2002 Medicare cost report excluding the 1,341 Medicare Part A paid days from the Medicaid fraction
and establish procedures to ensure that in the future only allowable days are included in the DSH reimbursement calculation.